2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

Legal Briefs

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No.
KENNETH RAY STRICKLAND,
Petitioner,
v.
THE STATE OF TEXAS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 6618 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 2nd day of October, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Boo Oudia-h, Ghhe

 

lhe ncaces NOTARY-State of Nebraska
RENEE J. GOSS
lhe ncaces Exp. September 5, 2023

Notary Public

Affiant

40077
